No.

In the
Supreme Court of the United States
DARRU K. "KEN" HSU, individually, and as trustee
of THE DARRU K. HSU and GINA T. HSU LIVING
TRUST U/A 05/05/03, individually and on Behalf of
All Others Similarly Situated,
Petitioner,

UBS FINANCIAL SERVICES, INC.
Respondent.
On Petition for a Writ of Certiorari to
The United States Court of Appeals
for the Ninth Circuit
PETITION FOR WRIT OF CERTIORARI
DARRU K. Hsu
Pro se
5538 MORNINGSIDE DR.
SAN JOSE, CA 95138
(408) 270-6139

RECEIVED
FEB 1 3 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTIONS PRESENTED

Question-1: Whether the Supreme Court should •
grant the judgment for the violation of SEC Heitman
Capital No Action Letter in UBS MAC wrap-fee
investment contract using exculpatory hedge clause.
Interlocutory review on this "controlling question of
law" will bring the class action to finality. (See p. 14)
Question-2: Whether the Court must determine that
the falsified defense failed to acquire 28 U.S.C. §
1331 Jurisdiction and deprived the 9th Circuit of
§1291 and §1292(a)(1) jurisdictions. This Court has
established §1253 jurisdiction for these exceptions.
The violation of the above SEC regulation was
never adjudicated. The district court raised the
falsified evidence for appellate review. (App. B) 28
U.S.C. 1254 cannot resurrect the jurisdictions voided
by the self-incriminated defense. (See p. 9)
Question-3: Whether the Court shall review the
statutory violations under 15 U.S.C. § 29. This Court
applied Expediting Act and Transfer Act for direct
review. See Swift & Co. v. United States, 276 U.S.
311, 322 (1928) The 1st Circuit denied its appellate
jurisdiction based on the Act,' while the 3rd Circuit
overlooked the § 1292(a)(1) exception.2 Here, the 9th
Circuit granted summery affirmance without
jurisdiction. Upon challenge, the Circuit disclaimed
its supervisory court jurisdiction. (See p. 12)
I United States v. Cities Suc. Co.,410 F.2d 662, 1st Cir. (1969)
2 Unite. d States v. Ingersoll-Rand Co., 320 F.2d 509 (1963)

Question-4: Whether the Court should mend the
vulnerability in the judicial system, and harmonize
with the SRO infrastructure (i.e., FINRA) under 15
U.S.C. § 78o 3 (Maloney Act) in the 21st Century to
uphold the purpose of Federal Arbitration Act for
reducing the court dockets. (See p. 18)
Question-5: Whether the clerk staff of this Court
violated S. Ct. Rule 7 in practicing as an attorney to
deny the docketing under Rule 18. Instead, the staff
imposed Rule 10-16 for §1254. (App. D and E) The
Court never applied the non-delegation doctrine in
Wayman v. Southard, 23 U.S. 1, 22 (1825) to Rule 18
in light of Rule 7. The staff brought forth the
jurisdictional conflict for review: §1254 lacks the
jurisdictional predicate which the Circuit had
disclaimed. While the district court raised the
evidence tampering for appellate review (App. B),
but had no jurisdiction to vacate the nonjurisdictional rulings (jurisdictional defects) of higher
courts including this Court. (No. 13-74 and 17-157)
PARTIES TO THE PROCEEDING
Petitioner and plaintiff is DARRU K. Hsu,
individually, and as Trustee of the DARRU K. Hsu
AND GINA T. HSU LIVING TRUST U/A05/05/03,
individually and on behalf of all others similarly
situated.
Respondent is UBS FINANCIAL SERVICES INC. The
parent company is UBS AG, Switzerland.
11

TABLE OF CONTENTS

Page

QUESTION PRESENTED
PARTIES TO THE PROCEEDING

ii
iii

TABLE OF CONTENTS

iv

TABLE OF APPENDICES
TABLE OF AUTHORITIES
OPINIONS AND ORDERS BELOW

1

STATEMENT of JURISDICTION

2

STATUTORY PROVISION INVOLVED

3

STATEMENT OF THE CASE

5

DIRECT REVIEW UNDER 28 U.S.C. § 1253

7

Practical Effective Rule under 28 U.S.C.
§1253

7

Interlocutory appeal from granting or
denying class certification

7

MAC contract itself raised the controlling
question of law

8

The direct attack on the district court with
evidence tampering

9

The line between error and misconduct

10

Appellate responses to Rule 23(c)(1)

11

The Expediting Act and the Transfer Act

12
14

INTERLOCUTORY REVIEW
Permanent injunction from the defense

14

Fraud in the MAC Wrap-fee contract

14

Where are the regulatory violations

16

111

Vulnerability in Supreme Court precedents

18

MAC contract is crafted to defeat Rule 23(f)

20

The cruelty in stealing own clients' private
account information

22

THE GATEKEEPING DUTY OF DISTRICT COURT

24

The harm on the gatekeeping duty

24

The serial attacks on the judiciary

25

CONCLUSION

27

Appendix A

1

9th Circuit's summary affirmance & denial of
reconsideration (19-15756, Dkt. 12, 14)

1

*Note: The Circuit never had 28 U.S.C. § 1291
and § 1292 jurisdiction. (See jurisdictional
challenge in Dkt. 13-1)
Appendix B

2

Amended order on Rule 60(b)(4) Motion
(ECF Doc. 94)
District Court's minute order (ECF Doc. 100)
Hearing Exhibit-1 (ECF Doc. 96)
Appendix C (Part-1, Client)
(Part-2, Investment Mgr.)
MAC wrap-fee agreement (ECF Doc. 57-1)
Appendix D, E

8
25
30

Notice of direct appeal (ECF Doc. 102-1, 9/16/2019)
and Clerk Office denial (9/20/2019)
*Note: All decisions are "drive-by jurisdictional rules"
resting on void Federal Question Jurisdiction.
iv

TABLE OF AUTHORITIES

CASES:
Abbott v. Perez, S.Ct., no. 17-586 (2018)
Anderson v. Liberty Lobby, Inc., 477 US 242

2, 7
25

Arbaugh v. Y&H Corp., 546 U.S. 500,
126 S. Ct. 1235 (2006)

26, 28

Ashcroft v. Iqbal, 556 U.S. 662 (2009)

6, 20

Baltimore & Carolina Line, Inc. v. Redman,
295 US 654 (1935)

12

Beneficial Nat. Bank v. Anderson,
539 U.S. 1 (2003)

6

Carson v. American Brands, Inc.,
450 U.S. 79 (1981)

2, 7

Chambers v. Nasco, Inc., 501 U.S. 32 (1991)

28

Gunn v. Minton, 133 S. Ct. 1059 (2013)

6

Hamer v. Neighborhood Housing Services of
(2017)
Chicago, 583 U.S.

5, 7

Henderson v. Shinseki, 131 S. Ct. 1197 (2011).... 26
Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992)

24

Parrino v. FHP, Inc., 146 F.3d 699,
9th Cir. (1998)

5

Phillips Petroleum Co. v. Texaco Inc.,
415 US 125 (1974)

6

Reed Elsevier, Inc. v. Muchnick, 559 U.S.
130 S. Ct. 1237 (2010)

26

Rodriguez de Quijas v. Shearson American
Express, Inc., 490 US 477 (1989)

18

SEC v. Capital Gains Research Bureau,
375 U.S. 180 (1963)

20, 21

Swift & Co. v. U.S., 276 U.S. 311 (1928)

i, 13

U.S. Bancorp Mortgage Co. v. Bonner Mall
Partnership, 513 U.S. 18 (1994)

12

U.S. v. Cities Svc. Co., 410 F.2d 662
(1st Cir. 1969)

i, 13

U.S. v. Ingersoll-Rand Co., et al.,
320 F.2d 509 (3rd Cir. 1963)

i, 13

Wilko v. Swan, 346 US 427 (1953)

18

Other Authorities:
Kenneth Gould, FRCP 23(f): Interlocutory Appeals
of Class Action Certification Decisions
UALR Vol. 1, Issue 2, Article 7 (1999)
7, 24
https://lawrepository.ualr.edu/appellatepracticeproc
ess/voll/iss2/7/
Discretionary Appeals of District Court: A Guided •
tour through section 1292(b) of the judicial code
Yale L. J. Vol. 69, Issue 2 (1960)
7, 24
https://digitalcommons.law.vale.edu/y1j/vo169/iss2/6
The Doctrine of Constitutional Avoidance: A Legal
Overview, Congressional Research Service
25
https://fas.org/sgp/crs/misc/R43706.pcif
Exchange Act:
15 U.S.C. § 78o 3 (Maloney Act codified in
Exchange Act for SRO, i.e. FINRA)

ii, 10

Investment Advisers Act, 15 USC § 80b-1, et seq.:
15 U.S.C. § 80b-2(a)(11)(C) Broker or dealer
exception from "Investment Adviser"
passim
vi

15 U.S.C. § 80b-6 Prohibited transactions by
investment advisers

4

15 U.S.C. § 80b-11 SEC enforcement

27

15 U.S.C. § 80b-15 Validity
of contracts

3, 9, 16, 18

15 U.S.C. § 80b-17 Penalties

27

17 CFR 275.206(4)-7 Compliance Procedure
4, 16, 23, 26
and Practices
17 CFR 279.1 - Form ADV, Disclosure
Brochure

17

15 U.S.C. § 77n [Securities Act] Contrary
stipulations void

18

15 U.S.C. § 78cc [Exchange Act] Validity of
contracts

18

15 U.S.C. § 78c(a)(10) [Exchange Act] - The
meaning of "security"

18

15 U.S.C. § 78c(a)(39) [Exchange Act]
Statutory disqualification

19

SEC AND FINANCIAL INDUSTRY REGULATORY
AUTHORITY (FINRA):

SEC Heitman Capital No Action Letter, hedge
passim
clauses in investment contracts
17 CFR § 248.1, SEC Regulation S-P
(for GLB Act)
17 CFR § 248.30(a) Policies and procedures
for SEC Regulation S-P

21, 23
23

FINRA Rule 2510(b) Authorization and
Acceptance of discretionary Account

9, 22

FINRA Rule 3110(f) arbitration agreement

16, 21

vii

OTHER STATUTES AND RULES:

9 U.S.C. § 1 et. seq. Federal Arbitration Act

12, 20

15 U.S.C. Ch. 94 Privacy (GLB Act)
Sub-chapter I - Protection of Nonpublic
Personal Information (§§ 6801 6809)

22, 23

Subchapter II - Fraudulent Access to
Financial Information (§§ 6821 6827)

23, 27

18 U.S.C. § 1512(c) Sarbanes-Oxley Act

22, 26

18 U.S.C. § 1956 Money laundering

13, 27

18 U.S.C. §§ 1961- 1968 Rico Act

22, 27

California Civ. Code § 1714.10(c) attorney civil
conspiracy with client

26

California Civ. Code § 3294 punitive damages

26

California Securities Act of 1968

26

FEDERAL COURT STATUTES:

28 U.S.C. § 1253

2, 7, 8, 27

28 U.S.C. § 1291

1, 2, 6, 7, 9, 10, 24, 26

28 U.S.C. § 1292(a)(1)

2, 6, 7, 8, 10, 11, 24, 25, 27

28 U.S.C. § 1331

6, 11, 24, 25

28 U.S.C. § 1631

27

28 U.S.C. § 2072(b)

19

28 U.S.C. § 2105 Abatement
28 U.S.C. § 2106

2, 27
2, 11, 12

viii

OPINIONS AND ORDERS BELOW
District Court finally provided an evidentiary
hearing and issued a minute order on the
falsification of UBS's own regulatory compliance
document in opening a new account for the MAC
wrap-fee investment contract, and yielded to a 3judge appellate review. (App. B-2)
On appeal (9th Cir. 19-15756, Dkt. 12, 8/1/2019), the
Panel granted summary affirmation. Appellant
timely filed a motion-for-reconsideration to challenge
the void 28 U.S.C. § 1291 and § 1292 jurisdictions.
The Panel finally responded and closed all the
appeals. (Dkt. 14, 10/10/2019)
Ninth Circuit (14-15588, Dkt. 28-1,
12/22/2016)3 — The decision was based on 28 U.S.C. §
1291 jurisdiction that the Circuit did not have.
Ninth Circuit (11-17131, 4/15/2013) 4 - The
decision was based on 28 U.S.C. § 1291 jurisdiction
that the Circuit did not have and without finality.
* All district court decisions on Darru K Hsu v. UBS
Financial Services, Inc., 3:2011-cv-020765

3 Available

at: https://law.justia.com/cases/federal/appellatecourts/ca9/14- 15588/14- 15588-2016- 12 -22. html
4 Available at: https://law.justia.com/cases/federallappellatecourts/ca9/11-17131/11-17131-2013-02-11.html
5 Unpublished district court docket available at:
hap s://dockets.ju stia.com/docket/california/can dce/3: 20 1 lcv0207
6/240024/

1

STATEMENT OF JURISDICTION
The petition for writ of certiorari is from Ninth
Circuit's disclaimed supervisory jurisdiction on the
district court's minute order in which preserved the
tampering of regulatory compliance document for
appellate review. (See App. A & B)
28 U.S.C. §1292, §1253, and 15 U.S.C. §29 are
all acts of Congress for direct review under S. Ct.
Rule 18-1. For Carson v. American Brands, Inc., 606
F.2d 420, 4th Cir. (1979), this Court affirmed §1253
jurisdiction for the interlocutory exception of
§1292(a)(1). Carson, 450 U.S. 79, 83. The Expediting
Act of 1903,6 as amended,' 15 U.S.C. §29 provides
direct review on the fraudulent contract and defense.
Jurisdictional defect is not subject to waiver
or forfeiture — including "discretionary" review under
§1254 to restore the good name of judges. The nonjurisdictional "defects" need 28 U.S.C. §2106 for
vacatur, and §2105 abatement for the government
jurisdictions to enforce the laws. However, the clerk
staff directed to re-file under § 1254. (App. E) The
Congress enacted Judicial Code §238 (including
§238(a) - the Transfer Act) was repealed (1925) and
reorganized into Title 28 (1948) for direct review.8
The non-delegation doctrine should ban clerk staff
from violating S. Ct. Rule 7. This petition must be
reverted to direct review on the statutory violations.
The decision belongs to Hon. Justices.
Title 15, §29 https://www.govinfo.gov/content/pkg/USCODE1995- title15/p df/US CO DE • 1995-title15-chap 1- sec29. pdf

6

7 See Historical and Revision Notes for Chap. 3, §41, 2nd
https://www . govin fo. gov/conte n t/pkg/US CODE -2011title28/html/US CO DE -2011-title28.htm
8 See Appendix to Rules (1925, Chapter 229); Sec. 238, p. 4
http s: //www su pre meco urt. gov/ctrule s/rules/ru le s 1948. pdf

2

STATUTORY PROVISION INVOLVED
(1) 15 U.S.C. § 80b-15 Validity of contracts:
Waiver of compliance as void
Any condition, stipulation, or provision binding
any person to waive compliance with any provision
of this subchapter or with any rule, regulation, or
order thereunder shall be void.
Rights affected by invalidity:
Every contract made in violation of any provision
of this subchapter and every contract heretofore or
hereafter made, the performance of which involves
the violation of, or the continuance of any
relationship or practice in violation of any
provision of this subchapter, or any rule,
regulation, or order thereunder, shall be void
as regards the rights of any person who, in
violation of any such provision, rule, regulation,
or order, shall have made or engaged in the
performance of any such contract, and
as regards the rights of any person who, not
being a party to such contract, shall have
acquired any right thereunder with actual
knowledge of the facts by reason of which the
making or performance of such contract was in
violation of any such provision.
(2) SEC Heitman Capital No Action Letter (Ref.
No. 200463918, File No. 801-15473)9 - Verbatim of
the "Legal Analysis":

9 SEC No Action Letter is available at:
https://www.sec.gov/divisions/investment/noaction/2007/heitma

n0212 07.pdf

3

Sections 206(1) and 206(2) of the Advisers Act
make it unlawful for any investment adviser to
employ any device, scheme, or artifice to
defraud, or to engage in any transaction,
practice, or course of business that operates as
fraud or deceit on clients or prospective clients.
Those antifraud provisions may be violated by
the use of a hedge clause or other exculpatory
provision in an investment advisory agreement
which is likely to lead an investment advisory
client to believe that he or she has waived nonwaivable rights of action against the adviser
that are provided by federal or state law.
(3) 17 CFR 275.206(4)-7: Compliance Procedure
and Practices (verbatim of relevant text):
If you are an investment adviser registered or
required to be registered under section 203 of the
Investment Advisers Act of 1940 (15 U.S.C. 80b-3),
it shall be unlawful within the meaning of section
206 of the Act (15 U.S.C. 80b-6) for you to provide
investment advice to clients unless you:
Policies and procedures. Adopt and
implement written policies and procedures
reasonably designed to prevent violation, by you
and your supervised persons, of the Act and the
rules that the Commission has adopted under
the Act;
Annual review ...; and
Chief compliance officer. Designate an
individual (who is a supervised person)
responsible for administering the policies and
procedures that you adopt under paragraph (a)
of this section.

4

Gramm-Leach-Bliley Act, a/k/a: GLB Act (15
U.S.C. §§ 6821 — 6827)
RICO Act (18 U.S.C. §§ 1961- 1968)

STATEMENT OF THE CASE
Jurisdictional defect is not subject to waiver or
forfeiture and may be raised at any time in the court
of first instance and on direct appeal. See Hamer v.
Neighborhood Housing Services of Chicago, 583 U.S.
(2017)
In 2011, plaintiff filed this class action against
UBS Financial Services Inc. ("UBS") after FINRA
arbitration for fraud in its Managed Account
Consulting investment contract ("MAC contract")
violating Investment Advisers Act ("IAA") — using
exculpatory hedge clauses. The pleading included
UBS's own regulatory compliance documents which
are the injury-in-effect of the class. These
documents are regulated by the IAA.
UBS filed a motion-to-dismiss supported by a
judicial notice containing two falsified documents
that only appear genuine on the face. The
defense relied on Parrino v. FHP, /nc.146 F.3d 699,
9th Cir. (Doc. 22 and 23) for the policy prohibiting a
complaint that hides "extrinsic" evidence in the
pleading to evade summary judgment conversion
under Rule 12(d). This policy is explained in a FRAP
28(j) Letter (Supplemental Authority).10
One document (Doc. 23, Exhibit A) is "Horizon
Agreement" which the defense claimed as a "separate"
See 9th Cir. 14-15588, Dkt. 30-2, p. 125. Also available at
https://digitalcommons.tourolaw.edu/lawreview/vol31/iss1/10/

10

5

agreement that lead-plaintiff Hsu entered with the
3rd-party manager. The other "FINRA Arbitration
Panel Ruling" (Doc. 23, Exhibit B) claimed that the
complaint is time-barred due to the prior FINRA
arbitration. The defense relied on Ashcroft v. Iqbal,
556 U.S. 662 that the pleading fell short of entitling
to relief for failing to allege enough facts (i.e., factual
insufficiency).
The signed "separate" agreement is unprovable with the genuine regulatory purpose
stripped away. (App. B-2) But the judge eliminated
the pleaded regulatory compliance documents and
turned the class action into an individual complaint.
The combination of evidence tampering deprived
appellate court of 28 U.S.C. § 1291 and § 1292(a)(1)
jurisdictions. However, federal courts have limited
"federal question jurisdiction" (28 U.S.C. § 1331), for
which litigating parties must satisfy "well pleaded
complaint rule". (See Doc. 89-1, p.4) The Rule is not
satisfied by a defense based on federal law, including
a defense of federal preemption, or by anticipation of
such a defense in the complaint. It does not allow a
district court to deviate from the "arising under the
Constitution, laws..." To rule otherwise would
contravene the face-of-the-complaint principle. See
Phillips Petroleum Co. v. Texaco Inc., 415 US 125,
128 (1974). In Beneficial Nat. Bank v. Anderson, 539
U.S. 1 (2003), the dissenting opinion cautioned that
"the rejection of a federal defense as the basis for
original federal-question jurisdiction applies with
equal force when the defense is one of federal preemption." (Id. at 12) Chief Justice delivered the
opinion in Gunn v. Minton, 133 S.Ct. 1059, 1065
(2013) citing four elements for well-pleaded
complaint rule based on Grable, 545 U.S. 308. These
precedents reject UBS's defense, as the IAA does not
6

reach the garden-variety "Horizon Agreement"
regardless falsified or not. (See Doc. 89, p. 2) The
defense failed to acquire "federal question
jurisdiction", and caused all "drive-by
jurisdiction" rulings.
DIRECT REVIEW UNDER 28 U.S.C. § 1253
Practical Effective Rule under 28 U.S.C. §1253
The Court applied "practical effect rule" to
§1253 to ensure jurisdiction relying on Carson v.
American Brands, 450 US 79, 83. Carson was a class
action case and the Court flexibly applied a 3-judge
appellate panel. The Court also interpreted the harm
from non-jurisdictional claim processing that caused
"permanent injection" for immediate review. See
Abbott v. Perez,17-586, 17-626, S.Ct., p. 11-14. Here,
jurisdictional defect from the direct attack on the
gatekeeping duty of the district court is not subject to
waiver or forfeiture and may be raised at any time in
the court of first instance and on direct appeal. See
Hamer v. Neighborhood Housing Services of Chicago,
(2017)
583 U.S.
Interlocutory appeal from granting or denying
class certification
The Interlocutory Appeals Act of 1958 was
codified in 28 U.S.C. § 1292(b) to modify the final
judgment rule (§ 1291). — The Act provides: (1) both
the district court judge and the court of appeals are
given absolute discretion whether to allow the appeal;
and (2) approval of the appeal requires a
determination that the certified order "involves a
controlling question of law as to which there is
substantial ground for difference of opinion."

7

Because by the terms of Rule 23(c)(1) a class
certification order "may be altered or amended before
the decision on the merits," post-certification order
discovery or other developments could require
revision of the original order. Yet, district court
should make an early decision whether a case should
proceed as a class action. The inherent conflict
between discovery fairness and discovery abuse for
settlement presented a unique challenge for the
courts and lay-investors alike on all wrap-fee
investment contracts regulated by 15 U.S.C. § 80b2(a)(11)(C), which is quite complex.
Interlocutory Review (page 14) provided the
fraudulent scheme in MAC contract. Below focuses
on "non-jurisdictional claim processing rulings"
caused by the fraudulent defense. Being the
supervisory court, the Circuit voided own jurisdiction
on all prior appeals, but without providing the
causation from evidence tampering. (App. A) 28
U.S.C. § 1253 or § 1292 exception is satisfied.
A.

MAC contract itself raised the controlling
question of law

(a.) 15 U.S.C. § 80b-2(a)(11)(C) of the IAA
regulates a broker (e.g., UBS Financial Services Inc.)
who sponsors a 3rd-p artry investment adviser (e.g.,
Horizon Asset Management Inc.) as the investment
manager for the broker. The falsified document is
part of opening a new exclusive account along with
the amount invested. It is for sharing advisory fees
with Manager based on the on-going investment
activities in the account. (See ADD. C, p. 13 and p. 25)
Thus, UBS requires its client to sign an
authorization on behalf of the Manager and send via
FAX the account number and the invested amount to

8

the sponsored Manager in compliance with 15 U.S.C.
§ 80b-2(a)(11)(C).
(b.) Part-2, §3(A) and §3(B) distorted the role of
"Advisor" under § 80b-2(a)(11)(C), because a client
enters the contract with UBS for "Advisor" to make
investment decisions and shared wrap-fee with UBS.
(See ADD. C, p. 27 and p. 25) On a different
regulation, FINRA Rule 2510(b) requires direct
authorization from the account owner for
discretionary management. This Rule is for someone
to aid elderly or disabled person to manage any asset
types (e.g., cash) held in the account. The rule does
not call out the purpose of §3(B) for "Advisor" to
comply with § 80b-2(a)(11)(C).
B. The direct attack on the district court with
evidence tampering
This class certification was defeated by the
rare combination of evidence tampering between
defendant-UBS and the district judge. (See ECF Doc.
35 and Doc. 22-23)
The falsified defense stripped away the
FAX transmittal and obscured the account opening
information in order to misrepresent the signed
authorization as a "separate" agreement with the
sponsored manager (i.e., Horizon). (See the minute
order in App. B) It severed the regulatory bound
between §3(A) and §3(B); but deprived the Circuit of
28 U.S.C. § 1291 jurisdiction without finality.
Facing with the un-provable defense, the
district judge chose to eliminate the regulatory
compliance documents in the complaint and only
applied 15 U.S.C. § 80b-15(a) to the complaint and
cast aside judicial deference to SEC Heitman Capital
No Action Letter. (Doc. 35, p. 9, L: 13) The eliminated
9

documents represent the injury-in-fact of all
investors who signed MAC contract for opening new
accounts required by 15 U.S.C. § 80b-2(a)(11)(C). The
appellate de novo review echoed the eliminated
Exhibits and the canceled jury trial. "we will not
consider arguments that are raised for the first time
on appeal". See the decisions in Fn. 4 & 5.
The judge turned the class action into
individual complaint, which steered appellate
jurisdiction to § 1291 and blocked interlocutory
review under § 1292 for Rule 23(c)(1). (ECF 9th Cir.
11-17131, Dkt. 38)
C. The line between error and misconduct
FRCP 1 is the basis for Code of Conduct for
United States Judges and Judicial Misconduct Rules.
This case shows the overwhelming challenge to
correct the non-jurisdictional drive-by rulings.
(a.) After the first appeal (11-17131), plaintiff
Hsu positively identified the falsification scheme and
filed a Rule 60(d)(3) motion to explain the complex
regulatory scheme and the attack on the judicial
system. (See Doc. 57, 57-1, et al., and 58); and filed
another motion for the newly discovered shutdown of
entire MAC Reviewed program (Doc. 70) during the
pendency of appeal (Doc. 71). The shutdown is
judicial admission, dispense with the need of proof.
However, the judge discarded FINRA as the
SRO under 15 U.S.C. § 78o 3; treated the juridical
notice of the regulatory scheme and the arbitration
as "irrelevant"; and shifted the burden of proof on
"Horizon Agreement" and "FINRA Arbitrator Panel
Ruling" to Hsu. (See Doc. 69, p. 6, L: 22 p. 7, L: 14)
(d.) Hsu filed a misconduct complaint. (Doc. 89,
89-1, 89-2, 89-3) The complaint showed that
10

demurrer-to-evidence of the Seventh Amendment
should have stopped the fraudulent defense. But the
9th Circuit chief judge applied an ancient precedent
well before 28 U.S.C. § 352(b)(1)(A)(ii) for "cognizable
misconduct"; and the Judicial Council "agreed".
(e.) The Rule 60(b)(4) motion challenged the
void 28 U.S.C. § 1331 jurisdiction and the absence of
jurisdiction during the pendency of appeal from Rule
60 motions based on the FRCP 62.1 - FRAP 12.1 pair.
(Doc. 80, 89 and 93) The judge finally held a hearing
and documented the falsification in the minute order
and directed appellate review. (App. B-2) The minute
order clearly indicated that district court does not
have appellate jurisdiction to affirm, modify, vacate,
set aside or reverse any judgment. (28 U.S.C. § 2106)
The amended judgment (App. B-1) is
correctable. The first dismissal cited "sword and
shield". (Doc. 35, p. 6, L: 7-22) The 2 Exhibits for the
defense and 6 Exhibits (with arbitration agreement)
for the complaint all belong to UBS. Hsu related to
Chinese "sword and shield".11 (Doc. 80, p. 4, L:18)
The legendary Chinese judiciary and Judgment of
Solomon converge to Federal Rule of Evidence §301
and the deleted demurrer-to-evidence (Rule 7(c)).
The burden of proof for all Exhibits rests with UBS
under the IAA. The defense failed the burden of
producing evidence but went forward to void Federal
Question Jurisdiction.
D. Appellate responses to Rule 23(c)(1)
The Circuit was confronted with Rule 23(C)(1)
and 28 U.S.C. §1292 at the onset (11-17131) between

11 See http://chinesegarden101.blogspot.com/2011/08/storv-ofspears-and-shields.html

11

the falsified defense and the judge's eliminated
evidence in the complaint. (Doc. 35)
Hsu appealed from the Rule 60(d)(3) motion.
(14-15588) The Circuit dismissed the motion and cast
away three FRAP 28(j) Letters vital to the class
certification: (1) the Law Review on this precedentsetting case for the No Action Letter, (2) the Law
Review on the exception to Rule 12(d) in all circuits,
and (3) FINRA regulation that required the court to
vacate the fraudulent arbitration under 9 U.S.C. § 2.
(14-15588, Dkt. 20-1; 27-1; 30-1). See Fn. 3. But the
reviewing procedure for demurrer-to-evidence made
the falsified documents "invisible". The Circuit
should have remanded for a jury trial. See Baltimore
& Carolina Line, Inc. v. Redman, 295 US 654.
Hsu appealed again. (19-15756) Despite the
explicit jurisdictional challenge, the Panel used
nonexistent judicial power to moot Declaratory
Judgment Act; then finally disclaimed all prior
jurisdictions and closed all appeals. (App. A). But 28
U.S.C. § 2106 disallows the close of this bona fide
Article III class action case after years of nonjurisdictional "paralysis" that blocked direct review
by this Court. See U.S. Bancorp Mortgage Co. v.
Bonner Mall Partnership, 513 U.S. 18, 21.
E.

The Expediting Act and the Transfer Act

The Court should bring consistency to
appellate jurisdiction for the century-old Expediting
Act for fraud on the IAA and other "interstate
commerce" laws. The contract and the defense
impeded Money Laundering regulations.12

12 See Congressional Research for the applicable categories.

https://fas.org/sgp/crs/misc/RL33315.pdf

12

Judicial Code §238(a) for the Transfer Act
of 1922 was repealed in 1925 (See Fn. 7). The
Expediting Act of 1903 was amended to 15 U.S.C. §
29 in 1974 (Pub. Law 93-528).13 The 9th Circuit
disclaimed its supervisory jurisdiction, thus §29(b)
affirmed direct review on the interpretation of the
interstate commerce laws. The laws in this case are
dispersed in 15 U.S.C. §80b-1, 18 U.S.C. §§ 1961-68
and 18 U.S.C. § 1956.
The Court recognized the Expediting Act and
the Transfer Act. See Swift & Co. v. United States,
276 U.S. 311, 323 (1928) The Court affirmed the
jurisdiction on 15 U.S.C. § 29. See Brown Shoe Co. v.
U.S., 370 US 294, 305 & 355 (1962) The 3rd Circuit
overlooked the exception in 28 U.S.C. 1292(a)(1).14
The 1st Circuit disagreed, and declined jurisdiction
based on the Expediting Act.15 Stare decisis requires
the transfer to this Court for direct review.
Separation of powers prohibits the denial of
the docketing under S. Ct. Rule 18. Congress
entrusted the non-delegation doctrine with the Court
for applying the laws and regulations to the nonjurisdictional "drive-by" rulings. And the district
court preserved the tampered regulatory document
along with the fake FINRA arbitration agreement
(detailed in page 18) for vacatur. (See App. B, p. 2-7)
The fraudulent contract and the defense must be
disposed of via government agency jurisdictions
under 28 U.S.C. §2105.16

13 See https://www.govinfo.gov/content/pkg/STATUTE88/pdf/STATUTE-88-Pg1708.Pdf
14 U.S. v. Ingersoll-Rand Co., et al., 320 F.2d 509, 3rd Cir. (1963)
15 U.S. v. Cities Svc. Co., 410 F.2d 662, 1st Cir. (1969)
16 Coastal Steel v. Tilghman, 709 F.2d 190, 196, 3d Cir. (1983)

13

INTERLOCUTORY REVIEW
Permanent injunction from the defense
The dual evidence tampering blocked the class
certification and caused res judicata on all investors
of MAC contract. This is permanent injunction. The
Circuit finally accepted the jurisdictional challenge
(Dkt. 13-1), and closed all appeals. (App. A) But the
evidence for the class action remains untouched for
the question of law. The case is ripe for direct review
on all non-jurisdictional "drive-by" rulings and the
formally documented minute order.
Fraud in the MAC Wrap-fee contract
The class action complaint contains 6 exhibits.
(Doc. 17) Exhibit A and B are the contract and the
disclosure brochure. Exhibit D and F are UBS's
internal policies and procedures which require UBS
Financial Advisor to only sell from MAC Reviewed
Advisors List (Exhibit ) and must obtain a signed
waiver for non-waivable fiduciary duty from Client
(Exhibit C). *Note: Excerpts of Record in 9th Cir. 1117131, Dkt. 8 for the Opening Brief provides easier
references in the Exhibits.
(Client)

(Investment Manager)

§1. Selection of
Investment .........,
Manager
,
§8/ Liability of
Ui3S Financial
Services Inc.

§3. Representations of the
Advisor
.... ..._
,, .
14. Anti-mdney laundering
and Reporting, responsibilities

§10. Arbitration
,
...... _ - --

§8. Entire agreement Re:
Advisor expres§ly agrees that
UBS Financial:ervices Inc.
Y shall not be bpUnd by any
s Tepresentati6n or agreement
heretofore or hereafter...
14

The table and Venn diagram above
summarizes the exculpatory hedge clauses in the
contract that violated SEC Heitman Capital No
Action Letter. The signed MAC contract is in Doc. 571, Exhibit A 1-4. It is reformatted verbatim in
Appendix C.
Client (Part-1) and Manager (Part-2) show the
sponsoring relationship.17 UBS does receive "special
compensation" not "incidental to" its brokerage
business, thus is regulated by 15 U.S.C. § 80b2(a)(11)(C). (See App. C, p. 13, §3 and p. 25, §2)
Investors only signed the contract with the
not the "sub-contracted"
broker (e.g., UBS)
Manager (e.g., Horizon). (App. C, p. 24) Part-1, §1
severed the prior advisory relation with UBS
financial advisor. (See Doc. 57-2) and shifted the
responsibility to UBS's Client for selecting a
Manager from MAC Reviewed Advisors List. (See
App. C, p. 10) The gray area of the intersection
shows the sole responsibility of UBS's Client for
the contract.
Part-2, §3(B) requires the Manager
registered under the IAA to deliver a separate
Disclosure Brochure (17 CFR 275.204-3) and obtain a
direct authorization from UBS's Client for opening
new account.
Part-2, §4 requires the UBS Client to
comply with the regulations on anti-money
laundering and embargoed commerce with the
Manager. But the Manager is only sub-contracted for

17 *Note: "Client"

means "investor" in the MAC wrap-fee
contract. Please don't be confused with broker as the client of
Investment Manager in SEC Heitman Capital No Action Letter.

15

the investment decision, not monetary transactions.
UBS does. (App. C, p. 27)
Part-1, §8 (App. C, p. 20) shifted the
liability of selection to Client, while Part-2, §8 (App.
C, p. 29) disclaims the liability of selling the contract
by UBS Financial Advisors. This leaves UBS Clients
solely liable for the criminal statutes in Part-2, §4.
Part-1, §10 is the tailor-made arbitration
prohibited by FINRA Rule 3110(f)(6). (App. C, p. 20)
This is a "divide and conquer" scheme to compel
investors into arbitration and defeat Rule 23(c)(1)
class certification in court. See page 20, §E
C. Where are the regulatory violations
SEC based on the No Action Letter submitted
by Heitman Capital Management LLC (Heitman) to
establish the policy that SEC will not take
enforcement actions on the circumstance raised in
the Letter. Heitman is an Investment Manager
sponsored by a broker, who defines the sponsorbroker as a "Client" (financial intermediary) of the
Manager. (See p. 2, ¶ VI of the Letter in Fn: 9)
"Client Indemnification" is at issue for violating
this No action Letter. 15 U.S.C. § 80b-15(b) regulates
all agreements made beyond the main contract
before and after - including the arbitration
agreement. The fiduciary waiver letter (Exhibit f.)
waived the non-waivable fiduciary duty to shift the
following compliance duties to UBS clients:
(a.) Part-1, §1 states that the selection is
Client's responsibility and the use of the List is
optional. (App. C, p. 10) But 17 CFR 275.206(4)-7
requires broker-sponsor to implement and comply
with Compliance Procedure and Practices under 15
U.S.C. § 80b-2(a)(11)(C). They are Exhibit D and F in
16

the class action complaint. (Doc. 17) They require
UBS financial advisors must use the List and must
obtain signed fiduciary waiver from UBS clients.
However, Part-1, §1 states the selection is UBS
Client's responsibility - including ERISA. (App. C, p.
16) The terms violated § 80b-2(a)(11)(C).
Both broker (e.g., UBS) and Manager (e.g.,
Horizon) must separately provide their Form ADV II
(17 CFR 279.1, afida, "Disclosure Brochure") to the
investor (e.g., UBS Client) and obtain the signature
to confirm delivery before signing the contract. This
delivery scheme is regulated by 17 CFR 275.204-3
and subsection 204-3(f). Subsection 204-3(d) and (e)
define a wrap-fee program's brochure and delivery.
This is the signatory purpose of all wrap-fee
contracts. (See Doc. 57, p. 5)
The UBS policy is in Doc. 17, Exhibit D, bates
# 0002429-432; or see 9th Cir. 11-17131, Dkt. 8, p.
78-81. UBS manager must approve the signed
contract with the new account (App. C, p. 24)
together with the signed fiduciary authorization for
the sponsored Manager. (Doc. 57-1, Exhibit A: 9)
Manager is only "sub-contracted" for
investment-reinvestment decisions not "incidentalto" purchases-sales of securities. §3(A) violated 15
U.S.C. § 80b-2(a)(11)(C) together with §3(B). And
Part-1, §1 (App. C, p. 10) severed UBS's liability
between Part-1, §8 and Part-2, §8.
UBS created a conduit to circumvent
criminal laws in Part-2, §4 (App. C, p. 27) to sell
MAC contract worldwide and made Client solely
responsible. The shaded blank intersection area in
the Venn diagram depicts the unlawful exculpatory
hedging practice. This contract violated SEC
17

Heitman Capital No Action Letter and bypassed U.S.
criminal regulations under the Commerce Clause.
In summary, the eliminated regulatory
documents in the complaint sufficed Rule 23(c)(1).
The contrasting pages in App. B, p. 7 were copied
from Doc. 57-1, Exhibit A: 8 -12 and Doc. 23-1, Exhibit A,
p. 4 7. Without the disproving pages from FINRA
arbitration discovery, there is little chance to prove
the falsification. (See UBS bates # on the pages)
D. Vulnerability in Supreme Court precedents
The judicial process is not in harmony with
the regulatory authority of 21st Century. See Doc.
89-1, Pp. 4-6, ¶ III (a)-(d).
(1) FINRA arbitration is mandatory for every
financial account or agreement. Rodriguez de
Quijas v. Shearson/American Express, Inc., 490 US
477, 484 (1989) overruled Wilko v. Swan, 346 US
427, 432 (1953). The Court decided that the nonwaivable right in arbitration agreements do not
contradict that in 15 U.S.C. § 77n (Securities Act)
and 15 U.S.C. § 78cc (Exchange Act). Nevertheless,
15 U.S.C. § 78c(a)(10) in Exchange Act's includes
"investment contracts" in connection with 15 U.S.C.
§ 80b-2(a)(11). No precedent seems to exist for
the non-waivable fiduciary right under 15
U.S.C. § 80b-15 of the IAA, which Congress
enacted to protect investors. The right under §
215(a) covers the investment contract and the
arbitration agreement herein; and the right under §
215(b) covers agreements made outside of the main
contract - before and after. "Client Acknowledgment
Letter for use with a MAC Reviewed Advisor" falls
18 See https://www.gpo.gov/fdsys/granule/USCODE-2010-

title15/USCODE-2010-title15-chap2B-sec78c

18

under this sub-section. (Doc. 17, Exhibit 0
Moreover, under 28 U.S.C. § 2072(b), violating nonwaivable rights would void the entire contract over
the life of the contract, during which the
investment adviser (i.e., UBS) continuously receives
compensation not "incidental to" its business. (App.
C, p. 13; Part-1, §3) But the "continuing violations"
doctrine is repeatedly affirmed in securities fraud
cases. See e.g., SEC v. Huff, 758 F. Supp. 2d 1288,
1340-41 (S.D. Fla. 2010), SEC v. Kelly, 663 F. Supp.
2d 276, 287-88 (S.D.N.Y. 2009), SEC v. Pentagon
Capital Mgmt. PLC, 612 F. Supp. 2d 241, 267
(S.D.N.Y. 2009).
(2) Federal Arbitration Act and Maloney Act are
not in harmony. They no longer reduce the courts'
dockets. Maloney Act of 1938 was codified into 15
U.S.C. § 78c(a)(39) for "statutory disqualification"19
in violating any securities laws. It gave the Self
Regulatory Organization ("SRO") the authority to
regulate its member firms. FINRA is the only SRO
in the 21st Century who holds Arbitration and
Enforcement under the same roof, but in separate
FINRA Arbitration and FINRA
divisions:
Enforcement.20 Parties to FINRA arbitration must
sign the Submission Agreement ("SA"). The SA
imposes the burden on the parties to abide by
FINRA By-laws and all FINRA rules when in
arbitration thus liable for lawyer's representation.
(See Doc. 57-3, Exhibit C: 1-5) The FAA is even
older. Modern-day arbitrators need not be lawyers.
FINRA cannot require arbitrators to enforce
19 See htths://www.govinfo.gov/content/ukg/USCODE-2010-

title15/udf/USCODE-2010-title15-chap2B-sec78c.pdf
20 See FINRA organization
http://www.finra.org/industrv/enforcement

19

securities laws, nor can investors oblige arbitrators
to do so. Worse, FINRA Enforcement does not
interfere with an on-going arbitration proceeding.
(3) Statutory disqualification "should" enable
FINRA to regulate financial firms for the violations
of the securities laws, and reduce the courts'
dockets. This is no longer true with the
plausibility standard under Ashcroft v. Iqbal.
The standard actually adds insult to injury, when
an investor takes a case to court on the save clause
of 9 U.S.C. § 2 under the FAA. The statute of
limitation becomes the insurmountable hurdle,
regardless whatever had happened in arbitration.
This is because the defense only needs to show
prima facie of the arbitrator's ruling which may not
follow the laws, and the "individualized" defense
can claim time-bar from the inception of each
contract agreement. It disabled SEC v. Capital
Gains Research Bureau, 375 U.S. 186-195 in a
lawsuit against the investment adviser.
E. MAC contract is crafted to defeat Rule 23(f)
The extortionary defense is integral to the
Part-2, §3 (advisor) and Part-1, §10
contract
(arbitration agreement) to defeat the U.S. judiciary
system including FINRA.
(1) "Horizon Agreement" is un-provable.
The regulatory bound (15 U.S.C. § 80b-2(a)(11))
between Part-2, §3(A) and §3(B) is concealed. The
FAX transmission from UBS to Horizon (by way of
Horizon's solicitor HRC) of the signed account
opening documents (i.e., MAC contract, the private
account # and confidential invested amount, plus the
authorization for the Adviser to manage and share
wrap fees) was for the compliance with § 80b-2(a)(11).
20

UBS must do so for every client of MAC contract.
The falsified defense stripped away the regulatory
context and use "Horizon Agreement" as the evidence
for "separate agreement" based on §3(A). (Compare
Doc. 23, Exhibit-A and App. B-2) This is confession to
the regulation violation of Part-2, §3. The fiduciary
relation recognized by Congress under SEC u.
Capital Gain, 375 U.S. 180, 194 (1963) does not
impose the burden of proof on lay-client to "disprove"
the terms. But there was not a single citing of the
controlling Capital Gains in the last 8 years.
(2) The tailor-made arbitration agreement is a
personalized "divide and conquer" scheme.
FINRA Rule 3110(f) prohibits class action. The
tailor-made arbitration agreement in Part-1, §10 is
faked hedging and violated FINRA Rule 3110(f). (See
Doc. 57, p. 14, L: 5 and App. C, p. 20) In short, the
fake arbitration agreement hedged for "waiver of
any rights". (App. C, p. 23) In arbitration, UBS
signed FINRA Submission Agreement (a/kJa, SA) for
itself and lawyers to abide by FINRA By-laws and
Rules. (See Doc. 57-3, Exhibit C: 3-5) Then conspired
with the lawyer by providing the accounts of Hsu's
family members which are irrelevant and
confidential. (See Doc. 57-3, Exhibit C: 12-22) The
purpose is to evade FINRA Rule 2111 for suitability
in selling to seniors.
The chair-arbitrator violated SEC Regulation
S-P upon demand by UBS lawyer. (Doc. 57-3, Exhibit
C: 41) Hsu filed a Motion for an Amended Pleading
based on: (1) the violation of the FINRA Rule 3110(f)
on the tailor-made arbitration agreement in the
MAC Wrap-Fee contract, and (2) the violation of SEC
Heitman Capital No Action Letter using unlawful
exculpatory hedge clauses in the contract. (Doc. 57-3,
21

Exhibit C: 3-5, 12-22, 23-27) Hsu requested FINRA
Enforcement Group to intervene. But the repeated
requests were denied. (Id., Exhibit C: 36-38)
VP of Arbitration apologized and provided
audio recording of the hearing for court action. (Doc.
88-1) The defense claim time-bar. (See Doc. 22-23)
And the judge dismissed the case based on one- and
three- year time-bar. (See Doc. 35, Pp. 7-8). The
compliance documents from FINRA discovery could
not overcome the Rule 23(c)(1) decision.
Equitable tolling of fraud applies to all
past and current investors who entered the
contract with the arbitration clause herein.
RICO Act and Sarbanes-Oxley Act apply.
F. The cruelty in stealing own clients' private
account information
FINRA Rule 2510(b) underlies all investment
products of financial firms. The "divide and conquer"
scheme can use the Rule to defeat complaints in
court. Without going through arbitration, leadplaintiff Hsu could not have obtained the evidence to
"defend" the chilling attack on the vulnerable group
which Hsu is part of.
(a.) FINRA Rule 2510(b) is for the fabric of our
society. When people get older (e.g., Hsu) or become
incapacitated; this rule allows a family member or an
executor for the discretionary authority to assist.
(See explanation in Doc. 57, p. 5 and Doc. 89-1, p. 6,
d) The assets in the account may or may not (e.g.,
cash) be regulated by the securities laws. On the
other hand, this kind of wrap-fee contracts requires
dedicated accounts to hold the transactions of the
3rd-party manager to share advisory fees, as it is

22

unlawful to charge fees on unrelated assets held in
the account. (See Part-2, §2 in App. C, p. 25)
SEC's support for Gramm-Leach-Bliley Act
(GLB Act) is SEC Regulation S-P (17 CFR §
248.30(a)). 17 CFR 275.206(4)-7 of the IAA requires
"Policies and Procedures" and "Chief Compliance
Officer". (See Doc. 57, p. 10, L: 1 and Doc. 89, p. 4, ¶
D) 17 CFR § 248.30(a) requires:
"Every broker, dealer and every investment
adviser registered with the SEC must adopt
written policies and procedures that address
administrative, technical, and physical
safeguards for the protection of customer
records and information."
Financial firms cannot provide Nonpublic
Personal Information to Non-Affiliated Third Party
(i.e., lawyers) 15 U.S.C. §6823(b) of the Act provides:
Whoever violates, or attempts to violate, section
6821 of this title while violating another law of
the United States or as part of a pattern of any
illegal activity involving more than $100,000 in
a 12-month period shall be fined twice the
amount provided in subsection (b)(3) or (c)(3)
(as the case may be) of section 3571 of title 18,
imprisoned for not more than 10 years, or both.
For the second time, UBS conspired with
the lawyers by providing the private account opening
documents to the Non-Affiliated lawyers, who then
falsified them to alter the court decision.
Each Managed Accounts Consulting (MAC)
contract starts at $100,000 minimum. (See Doc. 17,
Exhibit B, or Doc. 70-2, p. 13, bates #: UBS 0002415
of the Disclosure Brochure) Hsu alone lost several
times over the minimum. This is the actual injury
23

regardless for class action or not. The scope is
enormous. UBS sponsors 500+ MAC Reviewed
managers. (See Doc 70-2, FINRA: 5, bates # UBS
0002415) This amounts to $Bs from which UBS
collected hundreds of $Ms in wrap-fee annually. This
MAC contract was started around 2001 (See Doc. 571, Exhibit A: 21-23, Bates #. UBS-I/Oe 000771718, 19,
21), and sold by over 7,300 Financial Advisors
(according to UBS 2004 report).
THE GATEKEEPING DUTY OF DISTRICT COURT

All broker sponsored wrap-fee contracts must
comply with 15 U.S.C. § 80b-2(a)(11)(C) in opening
new accounts. This UBS contract and the defense are
crafted to obligate the judge to entertain the
misrepresented document bearing Hsu's signature,
and make a decision for Rule 23(c)(1) to prevent
discovery abuse. Now, the district court documented
the minute order on evidence tampering and directed
appellate review. (App. B, p. 6) All barriers are
removed for direct interlocutory review by this Court.
A. The harm on the gatekeeping duty
California still uses demurrer-to-evidence. Its
appellate review explains the "procedural blindness"
as to why 9th Circuit never "saw" the faked Exhibits
for the defense. (See ECF Doc. 89-1, 89-2) The
defense failed the burden of production for Federal
Rules of Evidence § 301 under the IAA, but went
forward to void 28 U.S.C. § 1331, and deprived
appellate §1291 and §1292 jurisdictions.
Lujan v. Defenders of Wildlife, 504 U.S. 555,
561 (1992) would not insist on the gatekeeping duty
of district courts because the low quality of evidence
in the pleading stage. But Rule 23(c)(1) requires an
24

early decision whether a case should proceed as a
class action. The conflict in timeline before discovery
led to the dire consequence. — The doctrine of
Constitutional avoidance was compromised by the
dual evidence tampering.21 (See Doc. 89, p. 5 and the
3'rd reference, p. 9 & p. 20) The shutdown of
entire "MAC Reviewed" program (Doc. 70, et al.)
is a judicial admission to which equitable
tolling of fraud applies. The remaining "MAC
Researched" program provides the same conduit for
money laundering and embargoed commerce, etc.
B.

The serial attacks on the judiciary

The grant of certiorari is very much the
exception. The allure precipitated systemic attacks
on the entire judicial system — by using falsified
evidence in FRCP 12(b)(6) defenses at district courts.
"Evidence of absence" is not provable, as it is
impossible to prove a negative - unless a law
prohibits. Neither a judge nor a plaintiff can know
the falsification with the law concealed. A falsified
defense can practically secure a "final decision", but
on the wrong side of the law - along with a judge.
(a.) Summary judgment will not lie if the
dispute about a material fact is "genuine." See
Anderson v. Liberty Lobby, Inc., 477 US 242, 248 and
Fn. 4 - 6 on the burden of proof. A trial judge must
apply the evidentiary standard of proof governed by
a substantive law. Here, 15 U.S.C. § 80b-2(a)(11)(C)
confers the jurisdiction and regulatory compliance on
all broker-sponsored contracts. But it is concealed in
this contract and the fake arbitration agreement.
The FRCP 60(d)(3) motion raised this "truth needs no
disguise". The judge is barred by Article III of the
21 Based on Ashwander v. TVA, 297 U.S. 288, 346-48

25

Constitution to discard this regulation and shift the
burden of statutory compliance to investors. (See Doc.
57, p. 4 vs. 69) Another challenge on the absence of
jurisdiction during the pendency of appeal (Doc. 93)
obligated the judge to finally conduct a hearing. UBS
admitted to falsifying the regulatory document and
the judge accepted his error. (App. B, p. 5) It firmly
rejects the preconceived "fix" for no FRCP 12(d)
conversion to summary judgment.22 (See Doc. 35, p. 9,
L: 13) All rulings are non-jurisdictional and void.
(Doc. 35, 69, 72, 87, 94) Even "bias" or "vexatious"
needs jurisdiction. (App. B, p. 2, c - e) In Henderson v.
Shinseki, 131 S. Ct. 1197, the Court corrected an
erred jurisdiction, citing Reed Elsevier, Inc. v.
Muchnick, 559 U.S. , 130 S. Ct. 1237 (2010) and
Arbaugh v. Y&H Corp., 546 U.S. 500 (2006) et al.
There was no precedent to restate and return the
jurisdiction to the Executive Branch.
(b.) Two lawyers (Shively and Powell) at Reed
Smith LLP falsified the account opening document
supplied by UBS (Doc. 22-23) and colluded in the 1'st
appeal. (11-17131, Dkt. 11) Then Cardozo misled the
Circuit into §1291 jurisdiction (14-15588, Dkt. 10-1,
p. 2) and contradicted the district court that the
finality for §1291 was not met. See "Hsu was offered
an opportunity to amend his complaint, but instead
sought immediate appellate review." (Doc. 69, p. 7, L:
26-28) Again, he co-filed an illicit non-jurisdictional
summary affirmance motion (19-15756, Dkt. 5) to
preempt direct review under 28 U.S.C. §1253. UBS is
estopped to contradict own confession to the falsified
defense. (App. B, p. 5) The Circuit initially granted
the motion; then abandoned its shoddy supervisory
For procedural guard: How Judges Judge, by Timothy
Capurso; https://scholarworks.law.ubalt.edu/lf/vol29/iss1/2

22

26

duty upon jurisdictional challenge. (9th Cir. Dkt. 13,
Dist. Ct. Doc. 93 and 89-1, -2, -3) That nullified the
jurisdictional predicate for §1254.
(c.) California Supreme Court regulates fraud
by licensed lawyers. CA Civ. Code § 1714.10(c) does
not protect attorney-client privilege for conspiring
with client. CA Civ. Code §3294 provides punitive
damages under oppression, fraud, or malice. And CA
Securities Act of 1968 protects investors in the State.
(i.e., CA Corp. Code §§ 25009.1, 25400, 28880, 28900)
They apply to the defense. (28 U.S.C. § 1652)
UBS and the lawyers colluded to violate RICO
Act (18 U.S.C. §§ 1961- 1968), GLB Act (15 U.S.C. §§
6821 6827), IAA (15 U.S.C. § 80b-11 and § 80b-17),
and 18U.S.C. § 1956 (Money laundering). SarbanesOxley Act is to combat aiding-and-abetting fraud in
the securities industry. Reed Smith LLP aided and
abetted with the fraudulent defense. 28 U.S.C. §
1292(b) reaches grand jury proceedings, as the case
is "hybrid", civil and criminal. UBS Financial
Services Inc. has own Chief Compliance Officer for 17
CFR 275.206(4)-7 to face Hon. Justices.
CONCLUSION
The district judge lost the dueling in the dual
evidence tampering between UBS and the judge. But
it denied the appellate jurisdiction for not final - 28
U.S.C. §1291, and not interlocutory - §1292(a)(1); and
obliterated government's 15 U.S.C. §29 jurisdiction
for enforcing the law and turned away the inquest by
Senator and FBI who honor the Separation of Powers.
Only Supreme Court has the authority under §1253
to review the "interlocutory or permanent injunction"
caused by the dual evidence tampering, and apply 28
U.S.C. §2106 to vacate the non-jurisdictional rulings,
27

and use 28 U.S.C. §2105 abatement to restore the
jurisdiction of the Executive Branch and protect the
liberties. This is fundamental to the Separation of
Powers. See Federalist Papers: No. 78. A reasoned
decision based on §1253 should make public the
attack on the entire judicial system including FINRA
arbitration and this Court.
"Notice of direct appeal" was filed in the court
of first instance (district court) following S. Ct. Rule
18 (App. D, p. 30-32). But a staff signed the letters on
behalf of the chief of Clerk Office which denied the
docketing (App. E, p. 33) and rigged 40-copies of
booklets for direct appeal into "notice of appeal".
(App. E, p. 34) And Reed Smith LLP refused to sign
the certified USPS delivery (App. E, p. 35). No
docketing, no case for Hon. Justices, and no record
for oversight. Clerk staffs are no match for attorneys
who prey on judges. §1254 cannot rest on void
jurisdiction. Two prior petitions (See Question-5) for
this case were denied, while the courts below
adamantly rejected their independent obligation to
determine whether jurisdiction exists. See Arbaugh,
546 U.S. at 514. The Court should set boundary that
honors the non-delegation doctrine and institutes
oversight for being preyed upon.
28 U.S.C. §1631 allows transferring to another
district court. Chambers v. Nasco, 501 US 32 (1991)
provides the inherent power against UBS and Reed
Smith LLP for preying on the entire judicial system
and the investment public.
Dated: February 4, 2020
Respectfully submitted,
/s/ Darru K. Hsu
DARRU K. Hsu, pro se
28

